APPENDIX A
Memorandum Decision, Filed June 8, 2020

Case: 18-10227, 06/08/2020, ID: 11713684, DktEntry: 48-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUN 8 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

U.S. COURT OF APPEALS

No. 18-10227
D.C. No. 1:16-cr-00451-JMS-3
MEMORANDUM*

ADAM JOSEPH BOGEMA, AKA Cadillac,
Defendant-Appellant.
Appeal from the United States District Court
for the District of Hawaii
J. Michael Seabright, District Judge, Presiding
Submitted June 2, 2020**
Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

Adam Joseph Bogema appeals from the district court’s judgment and
challenges the 300-month sentence imposed following his guilty-plea conviction
for conspiracy to distribute and possess with intent to distribute, and attempt to
possess with intent to distribute, methamphetamine, in violation of 21 U.S.C.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 18-10227, 06/08/2020, ID: 11713684, DktEntry: 48-1, Page 2 of 2

§§ 841(a)(1), (b)(1)(A), (b)(1)(B), and 846, and 18 U.S.C. § 2. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.
Bogema contends that his sentence is substantively unreasonable because the
district court failed to consider his mitigating arguments and several of the 18
U.S.C. § 3553(a) factors and drew an improper inference from evidence in the
record. The district court did not abuse its discretion. See Gall v. United States,
552 U.S. 38, 51 (2007). The record shows that the court adequately considered
Bogema’s arguments and the various § 3553(a) sentencing factors, including the
need to avoid unwarranted sentencing disparities and Bogema’s history and
characteristics. See United States v. Carty, 520 F.3d 984, 992 (9th Cir. 2008) (en
banc). Contrary to Bogema’s contention, the disparity between Bogema’s sentence
and that of his codefendant was not unwarranted. See United States v. Carter, 560
F.3d 1107, 1121 (9th Cir. 2009). Furthermore, the district judge’s inference from
the Facebook evidence was not inconsistent with the parties’ stipulation that
Bogema had not obstructed justice for purposes of U.S.S.G. § 3C1.1. The withinGuidelines sentence is substantively reasonable in light of the § 3553(a) sentencing
factors and the totality of the circumstances, including the nature of the offense and
Bogema’s extensive criminal history. See Gall, 552 U.S. at 51.
Bogema’s unopposed motion to take judicial notice is granted.
AFFIRMED.

2

18-10227

